   March 13, 2002




Acquisition

Results of the Defense Logistics
Agency Strategic Supplier Alliance
with Honeywell International,
Incorporated
(D-2002-059)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CLINs                 Contract Line Item Numbers
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DLA                   Defense Logistics Agency
DSCC                  Defense Supply Center Columbus
DSCP                  Defense Supply Center Philadelphia
DSCR                  Defense Supply Center Richmond
RIT                   Rapid Improvement Team
                       Office of the Inspector General, DoD
Report No. D-2002-059                                                    March 13, 2002
  (Project No. D1999CF-0077.001)


        Results of the Defense Logistics Agency Strategic Supplier
          Alliance with Honeywell International, Incorporated

                                   Executive Summary

Introduction. Over the past 5 years, the Office of the Inspector General, DoD, has
worked closely with the Defense Logistics Agency (DLA) and other DoD Components
to achieve fair pricing for sole-source items. We have issued a series of reports
involving pricing of both commercial and noncommercial spare parts. Two of the
reports discuss sole-source commercial and noncommercial spare parts procured from
AlliedSignal Incorporated. In response to the reports, the Director, DLA and the
Deputy Under Secretary of Defense (Acquisition Reform (renamed Director for
Acquisition Initiatives)) in June 1999, chartered a rapid improvement team to develop a
new strategic supplier alliance relationship between DLA and AlliedSignal. In
December 1999, AlliedSignal and Honeywell merged, forming a new company,
Honeywell International, Incorporated (Honeywell). The team included representatives
from Honeywell; DLA; Defense Procurement; the Defense Contract Audit Agency; the
Defense Contract Management Agency; the Office of General Counsel, DoD; the
Office of the Inspector General, DoD; and the Director for Acquisition Initiatives.

Objective. The objective was to report the results of the strategic supplier alliance
between DLA and Honeywell. Specific objectives focused on wait time savings,
inventory reductions, and potential cost savings associated with shifting from the
current method of support to a more tailored approach.

Results. The strategic supplier alliance resulted in three primary contracts for sole-
source Honeywell items (catalog, build-to-order, and replenishment). The contracts
were designed to address the nature of the demand for different customers and the
supplier economics of responding to those demands. As of September 2001, the
3 contracts covered 594 items with an annual demand of over $26 million.

The DLA/Honeywell strategic supplier alliance contracts provide a significantly more
efficient and economical procurement and logistics support strategy for sole-source
spare parts than earlier commercial or noncommercial order strategies. As a result,
DLA has been able to improve wait time, reduce inventory, and lower prices for its
customers. Inventory has already been reduced by $9.8 million for the first
221 contract line items on the catalog contract. Customer prices will be reduced by
$59 million for the first 594 items placed on the 3 alliance contracts over the 12-year
period of performance (catalog 322 items--$50.7 million, build-to-order 256 items--
$4.2 million, and replenishment 16 items--$4.1 million). Meanwhile, both DLA and
Honeywell will be able to realize procurement administrative efficiencies from the long-
term contracts, and Honeywell will increase its return on investment by providing
additional services and earn higher profits if costs are reduced. As of December 2001,
over 1,000 parts had been priced under the strategic supplier alliance, and the goal for
2002 is to price an additional 1,500 to 2,000 parts.

The Director, DLA and Director for Acquisition Initiatives are commended for their
efforts in organizing the rapid improvement team that resulted in the strategic supplier
alliance with Honeywell. In addition, the DLA contracting officers and representatives
on the DoD pricing team from both DLA and the Defense Contract Audit Agency are
commended for their efforts and assistance, which have resulted in shortened wait
times, reduced inventory, and lower prices for DoD.

Honeywell management is also commended for its cooperation in providing the DoD
pricing team access to cost data for both commercial and noncommercial sole-source
items. Honeywell management also allowed the cost-based pricing process to further
improve with “alpha or one-pass pricing.” The one-pass pricing process allows DoD
and Honeywell pricing teams to concurrently reach agreement on cost elements in real
time and provides a unique opportunity for DoD to directly impact judgmental decisions
made when pricing items. Honeywell management’s agreement to use the one-pass
pricing process dramatically improved the level of trust and cooperation between both
parties.

Management Comments. We provided a draft of this report on February 1, 2002.
No written response was required, and none was received. Therefore, we are
publishing this report in final form.




                                           ii
Table of Contents

Executive Summary                           i


Introduction
     Background                            1
     Objective                             2

Finding
     Strategic Supplier Alliance Results   3

Appendixes
     A. Scope and Methodology              18
     B. Prior Coverage                     20
     C. Report Distribution                22
Background
    Spare Parts Audits and Reviews. Over the past 5 years, the Office of the
    Inspector General, DoD, has worked closely with the Defense Logistics Agency
    (DLA) and other DoD Components to achieve fair pricing for sole-source items.
    We have issued a series of reports involving pricing of both commercial and
    noncommercial spare parts. Two of the reports discuss sole-source commercial
    and noncommercial spare parts procured from AlliedSignal, Incorporated. In
    December of 1999, AlliedSignal and Honeywell merged, forming a new
    company, Honeywell International, Incorporated (Honeywell). A third report
    discusses initial results of the strategic supplier alliance with Honeywell.

    DLA Price Trend for Commercial Items. In response to audit reports
    showing problems with prices for commercial items, Subsection 803(c) of the
    Strom Thurmond National Defense Authorization Act for FY 1999 requires
    DoD to prepare a report on price trends for commercial items. The April 1,
    2000, “Report on Price Trend Analysis of Exempt Commercial Items,” shows
    the overall price increases for DLA commercial items. The report shows that
    DLA prices for sole-source commercial items had increased by 23 percent over
    a 6-year period from FY 1993 through FY 1999. In contrast, aggregate cost
    growth for all commercial items was slightly over 12.3 percent for the same
    period.

    Strategic Supplier Alliance. In June 1999, the Deputy Under Secretary of
    Defense (Acquisition Reform) (renamed Director for Acquisition Initiatives) and
    the Director, DLA chartered the development and deployment of a pilot
    program to test the framework and tools for improving the total value for
    military customers and industry stockholders. The strategic supplier alliance
    with Honeywell employed a rapid improvement team (RIT) as the catalyst to
    drive the development and execution of plans designed to improve the total DoD
    supplier relationship. The RIT, facilitated by a representative from Leap
    Technologies in conjunction with the DoD Change Management Center, is an
    integrated process team with short timeframes to accomplish goals. The RIT
    included representatives from Honeywell; DLA; the Office of the Director,
    Defense Procurement; the Defense Contract Audit Agency (DCAA); the
    Defense Contract Management Agency (DCMA); the Office of General
    Counsel, DoD; the Office of the Inspector General, DoD; and the Director for
    Acquisition Initiatives. The RIT also included representatives from the Army,
    Navy, and Air Force. Numerous RIT meetings were convened to develop an
    overall approach and execution plan for the strategic supplier alliance between
    DLA and Honeywell. The meetings were frequently contentious, primarily over
    issues relating to commercial item determinations, cost data, cost accounting
    standards, and cost accounting standards waivers; however, the issues were
    eventually resolved to the mutual satisfaction of the team.

           Alternative Pricing Approaches. The RIT devoted significant efforts to
    evaluating the advantages and disadvantages of alternative pricing approaches.
    Regarding the DLA/Honeywell strategic alliance, the RIT determined that
    because all the items were considered sole-source, competitive pricing was not
    an option. Also, market (commercial) pricing was not practical because there
    was no commercial market to compare like or closely similar products to
                                       1
    establish baseline prices with a high level of confidence. The RIT believed that
    a high level of confidence in pricing was necessary due to the potential length of
    the contracts (12 years); therefore, reducing risk was key to any pricing
    approach. Accordingly, the RIT decided on the cost build-up approach where
    Honeywell would use cost-based pricing in accordance with its approved
    estimating system to price items. Honeywell agreed to make cost data
    (uncertified) available for review by representatives from DCAA and the
    DCMA to support cost realism. The Government agreed to perform an analysis
    of the contractor’s cost only once when items were placed on contract.

            Honeywell Position on Cost Accounting Standards. Honeywell had
    stated that it would not accept a Cost Accounting Standards covered contract
    under the strategic supplier alliance for both military-unique and commercial
    items because the nature of the teaming arrangement is commercial. For the
    same items, the practice before the alliance contracts was to issue individual
    purchase/delivery orders for each part number. This required order-by-order
    negotiations of price and significantly longer administrative lead times for
    delivery. In a June 23, 2000, memorandum, Honeywell stated that since
    January 1, 1998, Honeywell’s Defense and Space Division had received
    10,629 purchase/delivery orders from DLA and that only 25 (or 0.2 percent)
    had included the Cost Accounting Standards clause. This was because the
    delivery orders were usually under $500,000. Therefore, the Government
    decision to grant a Cost Accounting Standards waiver was reasonable.

            Cost Accounting Standards Waiver. On May 26, 2000, the Under
    Secretary of Defense for Acquisition, Technology, and Logistics waived the
    Cost Accounting Standards requirements for the catalog contract with
    Honeywell. The Under Secretary commented that the Cost Accounting
    Standards waiver would facilitate civil-military integration by permitting DLA
    to enter into a pilot strategic supplier alliance with Honeywell that would test
    Honeywell’s commercial supply methodology in the DoD marketplace.

Objective
    The objective was to report the results of the strategic supplier alliance between
    DLA and Honeywell. Specific objectives focused on wait time savings,
    inventory reductions, and potential cost savings associated with shifting from the
    current method of support to a more tailored approach. See Appendix A for a
    discussion of the review scope and methodology, and Appendix B for prior
    coverage.




                                        2
            Strategic Supplier Alliance Results
            The DLA/Honeywell strategic supplier alliance contracts provide a
            significantly more efficient and economical procurement and logistics
            support strategy for sole-source spare parts than earlier commercial or
            noncommercial order strategies. The improvements were achieved
            because items were:

                   •   sorted in best-value purchasing environments based on
                       demand,

                   •   procured on long-term contracts (catalog, built-to-order, and
                       replenishment), and

                   •   priced using “alpha or one-pass” cost-based pricing.

            As a result, DLA has improved wait time, reduced inventory, and
            lowered prices for its customers. DLA-held inventory has been reduced
            $9.8 million for the first 221 contract line items on the catalog contract.
            Customer prices will be reduced by $59 million for the first 594 items
            placed on the 3 alliance contracts over the 12-year period of performance
            (catalog 322 items--$50.7 million, build-to-order 256
            items--$4.2 million, and replenishment 16 items--$4.1 million).
            Meanwhile, both DLA and Honeywell will realize procurement
            administrative efficiencies from the long-term contracts, and Honeywell
            will increase its return on investment by providing additional services
            and earn higher profits if costs are reduced.

Earlier Order Strategies
     In 1998 and 1999, the Inspector General, DoD, issued two reports that
     discussed problems relating to both commercial and noncommercial spare parts
     procured from Honeywell (formerly AlliedSignal).

     Report No. 99-026, “Commercial Spare Parts Purchased on a Corporate
     Contract,” October 30, 1998. The audit showed that in FYs 1996 and 1997
     DLA supply centers paid AlliedSignal higher than fair and reasonable prices for
     commercial spare parts compared to the noncommercial prices paid to
     AlliedSignal in previous years. The audit determined that DLA paid a
     54.5 percent premium for commercial parts from AlliedSignal. Included in the
     higher commercial prices were costs for AlliedSignal to manage, stock, and
     deliver the items directly to DoD users, which lowers the total ownership cost
     for the Government and allows DLA to take full advantage of AlliedSignal’s
     commercial capabilities. The effective implementation by DLA of the
     commercial buying practices and direct vendor delivery stipulated in the contract
     (SPO500-96-D-9502) would have helped offset the higher prices. Instead, DLA

     paid the premium and then purchased the parts for inventory and charged its
     customers the full cost recovery rates for inventory management and delivery of
     the items, thus increasing its customers’ costs.

                                         3
  Report No. 99-218, “Sole-Source Noncommercial Spare Parts Orders on a
  Basic Ordering Agreement,” July 27, 1999. The audit showed that DLA
  supply centers paid about $4.9 million (or 18 percent) more than fair and
  reasonable prices for the $32.2 million of spare parts procured from
  AlliedSignal. The audit showed that DLA supply centers could reduce total
  ownership costs for their customers by using a combination of both cost- and
  price-based acquisition tools and negotiating long-term commercial type
  contracts with price improvements.

Best Value Purchasing Environments
  The RIT used an approach that sorted items based on the nature of the demand
  for different customers and the supplier economics of responding to those
  demands. Customer demands represent the order size and frequency as well as
  the predictability of the demand. The RIT employed a demand environment
  map, which became the cornerstone for the alliance relationship and the catalyst
  for moving from a transaction-based approach to contracting to a strategic
  alliance approach. In essence, demand and purchasing requirements were
  matched with supplier capabilities to leverage buying power and improve
  production economies of scale. For example, those items with stable demand
  and multiple customers (five or more) fell into the “catalog demand”
  environment. Those items with stable demand and one dominant customer fell
  into the “replenishment demand” environment, and those items with unstable
  demand fell into either the “rapid response” or “build-to-order” demand
  environments.

  As the DLA/Honeywell strategic supplier alliance evolved, the RIT determined
  that three separate contracts were required, one for each of the purchasing
  demand environments. Build-to-order and rapid response items were
  determined to be similar enough to be purchased on the same contract, while
  separate contracts were required for catalog and replenishment demand items.




                                      4
        Figure 1 shows the purchasing demand environment map employed by the
        DLA/Honeywell RIT and the characteristics for each environment.

Catalog Items:
Refers to demand
that is ongoing by a
relatively large
number of customers
who order at
different times and in
varying quantities             Stable demand > 5 users      > 50 percent demand at
                               < 15 day delivery            1 site Predominant User
                                                                                            Replenishment Items:
                                                                                            Refers to demand that is
    Product in production                                                                   ongoing by a primary
                                                                                            customer who has stable
                                                                                            demand

  Product not in production




                                             Low demand items or
                                             economic order quantities
                                             Fallout from other groups




    Build-to-Order Items:
    Refers to demand for                    Boundaries between environments are not rigid, and items can move
    products that DLA must                  between environments.
    maintain inventory by
    “turning on production.”


        Figure 1. Purchasing Demand Environment Map

Long-Term Contracts
        DLA has awarded Honeywell three long-term contracts (catalog, build-to-order,
        and replenishment) under the strategic supplier alliance. As of September 2001,
        a total of 594 items were on the 3 contracts with about 400 additional parts
        priced and in the process of being placed on contract. DLA and Honeywell
        goals for 2002 are to add an additional 1,500 to 2,000 parts to the contracts.



        Catalog Contract. On June 2, 2000, the Defense Supply Center Richmond
        (DSCR) awarded a requirements type contract (SPO410-00-D-0007) to


                                                      5
           Honeywell for “catalog” items. As of September 14, 2001, 322 parts1 were on
           contract with an annual demand value of about $18.1 million. The contract
           includes a base period of 3 years with two 3-year option periods. The contract
           also has award term provisions that allow the contractor to earn three additional
           1-year periods for a total possible contract length of 12 years. The estimated
           contract value is $120 million. The contract specifies direct vendor delivery of
           parts to DLA and its customers, and guarantees shipment within 15 days after
           electronic receipt of an order by Honeywell. The contract also requires 24-hour
           delivery when aircraft are grounded. As part of the alliance, the Government
           agreed to perform a baseline analysis of the contractor’s cost data only once,
           when an item is placed on the contract. In turn, Honeywell agreed to price
           improvement savings (price reductions) totaling 10.5 percent starting the fourth
           year of the contract and continuing for a 6-year period. Prices for the first
           3 years of the contract are fixed and represent a weighted average price that
           includes escalation. Prices for the next 6 years will be adjusted for escalation
           offset by the performance improvement savings, and prices for the last 3 years
           of the contract will be adjusted for escalation only.

           Build-to-Order Contract. On May 7, 2001, the Defense Supply Center
           Columbus (DSCC) awarded a requirements type contract (SPO740-01-D-9711)
           to Honeywell for build-to-order items. As of September 14, 2001, 255 parts
           were on contract with an annual demand value of about $6.5 million, excluding
           items from the Seawolf submarine program that have a lifetime buy value of
           about $280,000. The contract has three 1-year base years and three 3-year
           options, for a total possible contract length of 12 years. The estimated contract
           value is $52.8 million. The contract identifies economic order quantities and is
           designed to procure items for stock in Defense depots.

           Replenishment Contract. On May 1, 2001, DSCR awarded a requirements
           type contract (SPO400-01-D-9402) to Honeywell for replenishment items. The
           contract includes a base period of 3 years and three option periods of 3 years
           each, for a total possible contract length of 12 years. The replenishment
           concept has been the most difficult to execute and as of October 31, 2001, there
           were only 16 items on contract with an annual demand of about $1.8 million.
           The concept was based on the premise that Honeywell would maintain a
           constant flow of items with predictable demand directly to key DLA customers.
           Unfortunately, customer demand was erratic and rarely predictable, and key
           DLA customers have been reluctant to sign up to this type of support where
           items are “pushed” to the customer as opposed to a customer requisitioning an
           item or “pulling” from DLA or contractor inventory. The replenishment
           concept also requires a significant amount of administrative effort relating to
           manual input and planning. DLA is proceeding with the concept on a limited
           basis and currently shipping items into its inventory using the scheduled constant
           flow of material. Although shipping parts into DLA inventory was not the
           intended approach, it may prove beneficial especially for items with long
           production lead times and may also enable DLA to reduce inventory levels.
           However, the amount of administrative effort and manual intervention by both

1
    The contract includes 326 contract line items (parts); however, 4 parts have been removed.

                                                      6
           DLA and Honeywell needs to decrease to make the replenishment concept
           sustainable. Therefore, proceeding with the replenishment contract on a limited
           basis is a practical strategy.

Alpha or One-Pass Cost-Based Pricing
           DLA and Honeywell agreed that using cost-based pricing would apply to both
           commercial and noncommercial sole-source items. Honeywell management
           allowed the cost-based pricing process to further improve by adopting alpha or
           one-pass pricing. In one-pass pricing, a team of Government pricing experts
           consisting of DLA contracting officers and price analysts, cognizant DCAA
           representatives, and representatives from the Inspector General, DoD, meet with
           Honeywell staff to review cost data in the automated Honeywell estimating
           system. The items are priced and then placed on one of the three long-term
           contracts. The one-pass pricing process:

                    •   allows DoD and Honeywell pricing teams to reach agreement on cost
                        elements concurrently and determine prices in real time,

                    •   validates whether items have been placed in the correct purchasing
                        environment,

                    •   provides flexibility to move parts between contracts for the desired
                        level of service based on best value,

                    •   allows the team to identify and price items at economic order
                        quantities, and

                    •   provides the team a unique opportunity to directly impact judgmental
                        decisions made when pricing items.

           Honeywell’s agreement to use the one-pass pricing process for sole-source items
           dramatically improved the level of trust and cooperation between both parties.

Wait Time Savings
           Wait Time. The catalog contract requires improved delivery over current DLA
           performance, while the build-to-order and replenishment contracts do not. The
           latter contracts rely on the Defense supply system because parts are managed
           through the depot system. DSCR reported in June 2000, that for RIT candidate
           items, the average wait time2 was about 23 days, and that 8 percent of the
           requisitions were not filled within 90 days. We also reviewed logistics response
           times for 18 different catalog customers (1,122 FY 1999 requisitions) and found
           the average logistics response time (from the depot) to be 29.9 days (median
           8 days). Although the catalog contract does not provide a direct comparison to
           wait time, reductions in days from receipt of order to item shipment should

2
    Average wait time is the elapsed time (in days) from customer requisition to receipt of material ordered
    from the DoD wholesale system.

                                                       7
translate to reduced logistics response times. For each day logistics response
time is reduced, DLA reduces supply system costs because fewer parts are
needed in inventory.

As of July 31, 2001, Honeywell shipped 66.6 percent of the items representing
57.8 percent of the dollars on the catalog contract within 5 days, and
90.5 percent of the items representing 77.1 percent of the dollars within
15 days. These performance statistics include a 6-month ramp-up period for
individual parts based on the date the part was added to the contract when
shipments later than 15 days are not counted. The total value of the parts on the
catalog contract was about $6.7 million, while the amount used to evaluate days
to ship totaled about $4.4 million.

Figure 2 shows the numbers of catalog items shipped by Honeywell by specific
response times. “Booked” items have not yet shipped.



                   1,600


                   1,400   66.6%


                   1,200


                   1,000
 Number of Items




                    800


                    600


                    400            14.8%

                                            9.1%
                    200
                                                    3.7%
                                                                   2.2%    1.6%      0.2%     1.8%

                      0
                           0-5     6-10    11-15   16-30          31-60   61-120   121-180   Booked
                                                           Days


Figure 2. Days to Ship for Catalog Items (Percentage of Items Ordered)




                                                       8
           Figure 3 shows the total values of the catalog items that Honeywell shipped by
           specific response times.


                               3,000,000


                                           57.8%
                               2,500,000




                               2,000,000
                     Dollars




                               1,500,000




                               1,000,000


                                                    12.3%
                                500,000
                                                             7.0%                   6.7%
                                                                                            5.5%               5.4
                                                                     3.0%
                                                                                                     2.3%

                                      0
                                           0-5     6-10     11-15   16-30          31-60   61-120   121-180   Booked
                                                                            Days


           Figure 3. Days to Ship for Catalog Items (Percentage of Contract Dollars)

           In August and September 2001, Honeywell reported that some technical
           problems had occurred when placing orders for military-specific items on the
           catalog contract in its commercial distribution center. The technical problems
           resulted in a significant drop in the fill rates (orders shipped within 15 days) for
           the period (64.3 percent for August and 62 percent for September). In October
           2001, Honeywell reported the problems were corrected and that monthly fill
           rates should return to the 80.3 to 94.2 percent levels achieved in the preceding
           6 months.

           Administrative Lead Time. Both DoD and the contractor achieve savings by
           reducing administrative lead times.3 Instead of annually, or more frequently,
           negotiating the prices of items procured on different delivery order contracts,
           DLA and Honeywell now negotiate a price for an item once under one of the
           alliance contracts. Negotiated prices (adjusted for inflation and performance
           improvement on the catalog contract) are effective for the life of the contracts.
           For example, from 1996 to 1999, DSCC procured the same brake drum
           assemblies on 10 different delivery order contracts at 9 different prices. DSCC
           negotiated the price on each delivery order individually, and the administrative
           lead time on record as of the first quarter of FY 2000 was 180 days. Under the
           alliance catalog contract, the current administrative lead time for the item was
           reduced to 10 days. The Defense Operations Research and Resource Analysis
           Group has calculated that the average cost for a DoD inventory control point to

3
    Administrative lead time is the elapsed time to place material on contract.

                                                               9
procure an item is about $160 for contract actions under $100,000 and between
$1,600 and $12,000 for contract actions over $100,000.

Table 1 shows the reductions in administrative lead time for catalog contract
items from the first quarter of FY 1999 to the third quarter of FY 2001. The
Defense Supply Center Philadelphia (DSCP) and DSCC had not made
reductions in administrative lead times for items recently placed on the contract
in the DLA Standard Automated Material Management System.

   Table 1. Reductions in Administrative Lead Time for the Group of
     Items Added With Each Catalog Contract Modification (Days)
   Line                         FY 1999 FY 2000 FY 2001 FY 2001
  Items      Effective Date     quarter 1 quarter 1 quarter 1 quarter 3          Days     Percent

   1-34          June 2000         4,256         4,343         807       680    (3,576)   (84.0)
  35-101    December 2000          4,373         2,366       2,273     1,299    (3,074)   (70.3)
 102-125    December 2000          1,062           683         671       351      (711)   (66.9)
 126-221         May 2001          9,427         9,282       9,399     4,734    (4,693)   (49.8)
 222-280          July 2001        7,338         7,127       7,266     5,745    (1,593)   (21.7)
 282-326    September 2001         6,642         6,732       7,652     8,857     2,215     33.3

 Total                            33,098      30,533        28,068    21,666 (11,432)     (34.5)



Table 2 shows reductions in administrative lead times for build-to-order contract
items from the first quarter of FY 1999 to the third quarter of FY 2001.

    Table 2. Reductions in Administrative Lead Time for the Group of
  Items Added With Each Build-to-Order Contract Modification (Days)
  Line                        FY 1999 FY 2000 FY 2001 FY 2001
 Items     Effective Date     quarter 1 quarter 1 quarter 1 quarter 3      Days         Percent

  1-60       May 2001           6,577       7,060         8,092    3,377   (3,200)        (48.7)
 61-183      June 2001         13,859      13,779        14,156   13,615     (244)         (1.8)
184-256 September 2001          8,672       8,965        10,336   11,414    2,742          31.6

 Total                         29,108      29,804        32,584   28,406       (702)       (2.4)




                                            10
    Table 3 shows reductions in administrative lead times for replenishment contract
    items from the first quarter of FY 1999 to the third quarter of FY 2001.

                                                      Table 3. Changes in Administrative Lead Time
                                                             for Replenishment Items (Days)
       Line                                                       FY 1999 FY 2000 FY 2001 FY 2001
      Items                                 Effective Date        quarter 1 quarter 1 quarter 1 quarter 3                   Days         Percent

      1-17                                             May 2001     2,073             2,567             2,677         697   (1,376)          (66.4)



Defense Inventory
    Catalog Contract. The catalog contract has significantly reduced Defense
    supply inventory. For the first 221 contract line item numbers (CLINs),
    Defense supply inventory was reduced from $13.9 million in the first quarter of
    FY 1999 to $4.1 million in the third quarter of FY 2001, a reduction of
    $9.8 million or 70.9 percent.

    Figure 4 shows the reduction in Defense supply inventory for items on the
    catalog contract.


                                       16


                                       14


                                       12
        Inventory Value ($ millions)




                                       10


                                        8


                                        6


                                        4


                                        2


                                        0
                                       FY 1 9 9 9                  FY 2 0 0 0                          FY 2 0 0 1             FY 2 0 0 1
                                       q u a rter 1                q u a rter 1                        q u a rter 1           q u a rter 3

                                                                  C LIN 1 -3 4 effec tiv e Ju n e 2 0 0 0
                                                                  C LIN 3 5 -1 2 5 effec tiv e D ec em b er 2 0 0 0
                                                                  C LIN 1 2 6 -2 2 1 effec tiv e M a y 2 0 0 1


    Figure 4. Decreases in Defense Supply Inventory for Catalog Contract Items




                                                                                       11
Figure 5 shows Defense supply inventory increased from $3.2 million in the
first quarter of FY 1999 to $5.1 million in the third quarter of FY 2001, an
increase of $1.9 million for items that were placed on the catalog contract in
July 2001 and September 2001. This Defense inventory will also be reduced as
the Defense depots issue items from on-hand stocks and supply support
transitions to the contractor.


                                      6



                                      5
      Inventory Value ($ millions)




                                      4



                                      3



                                      2



                                      1



                                      0
                                     FY 1 9 9 9            FY 2 0 0 0                           FY 2 0 0 1    FY 2 0 0 1
                                     q u arter 1           q u arter 1                          q u arter 1   q u arter 3
                                                   C LIN 2 8 2 -3 2 6 effective S ep tem b er 2 0 0 1
                                                   C LIN 2 2 2 -2 8 0 effective Ju ly 2 0 0 1




Figure 5. Increases in DoD Supply Inventory for Items Recently Placed on
the Catalog Contract

The increase in DoD supply inventory shown in Figure 5 occurred prior to the
items being placed on the catalog contract and as items are drawn down and
transitioned to contractor support, the DoD inventory should begin trending
down.

Build-to-Order and Replenishment Contracts. The build-to-order and
replenishment contracts have not yet shown significant reductions in the value of
Defense inventory because items were only recently placed on contract and
Defense depots still stock the parts. However, reductions in administrative lead
times and economic order quantities negotiated on the build-to-order contract
should eventually lower the value of Defense inventory in the depots.




                                                                          12
    Tables 4 and 5 show the value of Defense inventory for build-to-order and
    replenishment contract items. Build-to-order contract line items 61-183
    represent support for the Seawolf submarine program that was not previously
    supported by DLA.

              Table 4. Increase in Supply Inventory for Build-to-Order Items
       Line                     FY 1999     FY 2000     FY 2001     FY 2001
      Items    Effective Date   quarter 1   quarter 1   quarter 1   quarter 3   Amount   Percent

       1-60       May 2001 $2,761,002 $2,984,352 $3,574,807 $4,068,752 $1,307,750      47.4
      61-183      June 2001       100      3,443     31,487    131,932    131,832 131,832.0
     184-256 September 2001   791,906    684,987 2,350,515 2,661,698 1,869,792        236.1

     Total                      $3,553,008 $3,672,782 $5,956,809 $6,862,382 $3,309,374       93.1



              Table 5. Decrease in Supply Inventory for Replenishment Items
       Line                     FY 1999     FY 2000     FY 2001     FY 2001
      Items    Effective Date   quarter 1   quarter 1   quarter 1   quarter 3   Amount   Percent

      1-17          May 2001 $2,448,035 $2,555,154 $2,241,332 $2,395,596 ($52,439)        (2.1)



Customer Prices
    DoD organizations could save about $59 million for the first 594 items placed
    on the 3 alliance contracts over the 12-year period of performance (catalog
    322 items--$50.7 million, build-to-order 256 items--$4.2 million, and
    replenishment 16 items--$4.1 million).

    We calculated the savings by comparing the prior prices from recent Honeywell
    contracts other than the strategic supplier alliance contracts. The recent
    procurement prices had also dropped significantly from earlier commercial and
    priced-based prices. For example, the unit price for a shutoff valve assembly
    was $3,307.08 on an October 2000 contract awarded by the DSCC; the supply
    center had paid $4,555.61 in March 1997 and $5,289.34 in October 1996. The
    recent price had decreased by 27.4 and 37.5 percent, respectively, from the
    earlier prices.

    Catalog Contract. The catalog contract has significantly lowered prices for
    DLA customers. For the first 322 contract line items (326 contract line items
    but 4 items have been removed), annual customer prices decreased by
    $2.4 million, from $20.5 million to $18.1 million, or 11.8 percent. In fact,
    prices for 222 of the 322 parts on contract or 69 percent decreased from prior
    year prices. For example, in February 1999, DSCR purchased 39 torsion plane
    shafts at a unit price of $467. The DLA standard unit price (customer price) for
    the part was $606.17. Because the item was purchased in 1999, we added
    2 years of inflation (3 percent) for a current year price of $624.36. The

                                            13
negotiated price on the catalog contract for the part was $144.70 (good through
June 2003). With the addition of the DSCR direct vendor delivery cost
recovery rate of 12.1 percent to the cost of the item, the final customer price is
$162.21, or a reduction from the previous price of 74 percent. We used the
FY 2001 third quarter annual demand quantity (annual demand quantities are
based on the past 4 quarters demand) to calculate total annual prices and
differences. We followed this procedure for our analyses of each part.

Table 6 shows the annual saving for the first six groups of parts negotiated on
the catalog contract.

  Table 6. Comparison of Catalog Prices with Prior Year Prices
                  Effective        Annual Customer Price             Difference
   Line Items       Date           Catalog      Prior Year*        Amount    Percent

       1-34          Jun-00       $ 6,325,008    $ 6,953,441    $ (628,433)       (9.0)
      35-101        Dec-00          2,723,117      3,529,829      (806,712)      (22.9)
     102-125        Dec-00             58,687         59,568          (881)       (1.5)
     126-221        May-01          4,621,713      5,143,239      (521,526)      (10.1)
     222-280          Jul-01        1,701,121      2,051,032      (349,911)      (17.1)
     282-326        Sep-01          2,654,346      2,774,533      (120,187)       (4.3)

     Total                       $18,083,992     $20,511,642    $(2,427,650)     (11.8)

  *Prior year prices were escalated using the Aircraft Procurement, Navy (APN) inflation
  indices (base year: mid-FY 2001)


To calculate the total catalog contract savings, we used the Data Resource
Institute escalation projections used in the contract and applied the escalation
factor to the DLA standard unit price total for the items. We used the same
escalation projections to calculate catalog contract prices but reduced the figures
by the price improvement figures negotiated in the contract to arrive at a net
change amount.




                                         14
Table 7 shows the impact of the price improvement savings over the life of the
catalog contract. DLA customers will save about $50.7 million or 20.6 percent
over prior prices for the first 322 contract line items.

Table 7. Catalog Contract Price Improvement Savings
        Price Improvement (percent)         Customer Prices            Difference
 CY     Escalation Gross** Net          Catalog     DLA SUP***      Amount      Percent
 2001                                              $ 20,511,642
 2002       2.8                       $ 18,083,992    21,085,968 $ (3,001,976) (14.2)
 2003       3.3      (3.0)    0.3       18,138,244    21,781,805   (3,643,561) (16.7)
 2004       3.5      (2.5)    1.0       18,319,626    22,544,168   (4,224,542) (18.7)
 2005       3.2      (2.0)    1.2       18,539,462    23,265,581   (4,726,120) (20.3)
 2006       3.3      (1.5)    1.8       18,873,172    24,033,346   (5,160,173) (21.5)
 2007       3.4      (1.0)    2.4       19,326,128    24,850,479   (5,524,351) (22.2)
 2008       3.3      (0.5)    2.8       19,867,260    25,670,545   (5,803,285) (22.6)
 2009       3.3               3.3       20,522,880    26,517,673   (5,994,794) (22.6)
 2010       3.3               3.3       21,200,135    27,392,756   (6,192,622) (22.6)
 2011       3.3               3.3       21,899,739    28,296,717   (6,396,978) (22.6)

Total      29.9*    (10.5)   19.4     $194,770,638 $245,439,040* $(50,668,402) (20.6)
* Total represents shaded figures for comparison purposes.
** Gross price improvement percentages negotiated in contract.
*** SUP- Standard Unit Price
Build-to-Order Contract. The build-to-order contract has also lowered prices
for DLA customers. For the first 133 (non-Seawolf submarine) contract line
items, annual customer prices have decreased $341,983 (from $6,836,737 to
$6,494,754) or 5.0 percent. For the 123 Seawolf contract line items, costs have
decreased $101,242 (from $381,478 to $280,236) or 26.5 percent. For the total
256 contract line items, contract prices for 93 parts decreased, 56 have
increased, and 107 parts (primarily Seawolf submarine) had no prior history.

Table 8 shows the annual savings for build-to-order contracts items.

  Table 8. Comparison of Build-to-Order Prices with Prior Year Prices
                         Effective
                           Date     Annual Customer Price            Difference
         CLINs                        BTO      Prior Year        Amount       Percent
          1-60               May-01 $3,181,960 $3,102,652        $ 79,308        2.6
         184-256             Sep-01 3,312,794 3,734,085           (421,291)    (11.3)

   Annual Amount                      $6,494,754 $6,836,737      $(341,983)     (5.0)

         61-183*             Jun-01    $280,236     $381,478     $(101,242)    (26.5)

    Lifetime Amount                    $280,236     $381,478     $(101,242)    (26.5)

  *Seawolf submarine items CLINs represent a lifetime buy.
DLA customers will save about $4.2 million for the 256 parts currently on
contract ($341,983 X 12 years = $4,103,796 + $101,242 = $4,205,038).

                                          15
For comparison purposes, we selected the economic order quantity from the
build-to-order contract based on the annual demand quantity and compared it to
the prior year price. For example, we used the 23-up unit price (see Table 9)
for an actuating valve arm because the annual demand quantity for the part was
27. We compared that price to the 1999 prior contract price of $756.41 and
applied the appropriate DLA cost recovery rates and escalation to the prior year
prices.

Table 9 provides a clear example of the impact of one-pass pricing for items
placed on the build-to-order contract. The ability to see the contractor’s cost
data enabled the team to price items in different quantity ranges to obtain
economic order quantities. While not available for all parts, parts with price
ranges enable DLA to procure economic order quantities based on the annual
demand. The table also shows that DLA needs to use appropriate judgment
when selecting procurement quantities. For example, either 15 or 23 items can
be procured at a lower total price than 10 items.

      Table 9. Quantity Price Ranges for Actuating Valve Arms

            Annual
            Demand
    Year    Quantity      Range    Quantity     Unit Price    Total Price

       Build-to-Order Contract
    2001       27         5-10       10            $650.25        $6,503
                         11-15       15            $402.99        $6,045
                         16-22       22            $338.72        $7,452
                         23-up       23            $274.48        $6,313
        Prior Year Contracts
    1999                             12            $756.41        $9,077
    1998                             23          $1,380.92       $31,761


Replenishment Contract. The replenishment contract has also lowered prices
for DLA customers. For the first 16 contract line items, annual customer prices
decreased by $231,910 (from $2,020,983 to $1,789,073) or 11.5 percent.




                                   16
    Table 10 shows that DLA customers will save about $4.1 million or 16 percent
    for the 16 parts over the 12-year life of the contract. Because the negotiated
    prices were good for the 3-year base period, escalation was added to the 2002
    and 2003 prior year prices.

     Table 10. Comparison of Replenishment Prices with Prior Year Prices
                             Annual Customer Price                   Difference
        CY    Escalation   Replenishment    Prior Year        Amount          Percent
       2001                  $ 1,789,073      $ 2,020,983     $ (231,910)       (11.5)
       2002       2.8%         1,789,073        2,077,571       (288,498)       (13.9)
       2003       3.3%         1,789,073        2,146,131       (357,058)       (16.6)
       2004                    1,789,073        2,146,131       (357,058)       (16.6)
       2005                    1,789,073        2,146,131       (357,058)       (16.6)
       2006                    1,789,073        2,146,131       (357,058)       (16.6)
       2007                    1,789,073        2,146,131       (357,058)       (16.6)
       2008                    1,789,073        2,146,131       (357,058)       (16.6)
       2009                    1,789,073        2,146,131       (357,058)       (16.6)
       2010                    1,789,073        2,146,131       (357,058)       (16.6)
       2011                    1,789,073        2,146,131       (357,058)       (16.6)
       2012                    1,789,073        2,146,131       (357,058)       (16.6)

      Total                 $21,468,876         $25,559,864   $(4,090,988)        (16.0)


Honeywell Savings
    The strategic supplier alliance contracts enable Honeywell to realize
    procurement administrative efficiencies through long-term contracts instead of
    negotiating thousands of orders and to increase its return on investment by
    providing additional services. Each of the three contracts provides a fee
    commensurate with the level of service provided by Honeywell. The contracts
    also enable Honeywell to earn higher profits if costs are reduced.

Conclusion
    The DLA and Honeywell strategic supplier alliance is clearly an efficient and
    economical procurement and logistics support concept for sole-source
    commercial and noncommercial spare parts.




                                           17
Appendix A. Scope and Methodology
   We conducted this review from June 2001 through October 2001. To
   accomplish the review objective, we:

          •   participated on the Rapid Improvement Team with Government
              acquisition and regulatory officials, Change Management Center
              officials, and Honeywell officials;

          •   evaluated wait time, administrative lead times, Defense inventory,
              and prices for the 594 items on contract as of September 2001, with
              an annual demand of about $26 million;

          •   participated in one-pass pricing meetings at Honeywell;

          •   reviewed procurement data from 1999, 2000, and 2001 supplied by
              the Defense Operations Research and Resource Analysis office from
              the DLA Standard Automated Material Management System to
              determine annual demand quantities, mean acquisition unit costs,
              standard unit prices, inventory levels, and administrative lead times;

          •   reviewed procurement history data from the Haystack procurement
              system to verify the mean acquisition unit costs supplied by the
              Defense Operations Research and Resource Analysis Group;

          •   used Aircraft Procurement, Navy inflation indices (base year: mid-
              FY 2001) to inflate prior year customer prices to current years and
              the escalation figures used in the contract from the Data Resource
              Institute to calculate future year prices;

          •   reviewed the contracts, Cost Accounting Standards waiver, and other
              contract documentation; and

          •   met with DLA and Honeywell officials to discuss the results of the
              strategic supplier alliance.
   This report was not an audit. We did not meet the government auditing
   standard for appearance of independence because we actively participated and
   continue to participate on the DLA/Honeywell Strategic Supplier Alliance team.
   However, our primary objective for participating on the strategic supplier
   alliance was to advise DLA in implementing recommendations made in
   Inspector General, DoD, Reports No. 99-026 and 99-218. We believe that the
   goals of those recommendations were achieved.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the DoD. This report provides coverage
   of the Defense Inventory Management and Contract Management high-risk
   areas.
                                       18
Use of Computer-Processed Data. To perform the work, we relied on
computer-processed data from DLA and commercial sources. We queried the
DLA Standard Automated Material Management System to determine
requisition data and inventory levels of consumable items that are managed by
DLA. We also obtained procurement history information from a commercial
system, “Haystack Online for Windows,” provided by Information Handling
Services, Engineering Products Division. We compared computer-processed
data from the DLA and Haystack systems with actual data from the three
strategic supplier alliance contracts and nothing came to our attention that
caused us to doubt the reliability of the computer-processed data.

Contacts During the Review. We visited or contacted individuals within the
DoD and Honeywell. Further details are available on request.




                                   19
Appendix B. Prior Coverage
         During the last 5 years, the General Accounting Office has issued three audit
         reports and the Inspector General, DoD, has issued eleven reports discussing
         either prices for spare parts or Defense inventory management in the acquisition
         reform environment.

General Accounting Office
         General Accounting Office Report No. NSIAD-00-22 (OSD Case No. 1903),
         “Contract Management: A Comparison of DoD and Commercial Airline
         Purchasing Practices,” November 29, 1999

         General Accounting Office Report No. NSIAD-00-1 (OSD Case No. 1885),
         “Defense Inventory: Improved Management Framework Needed to Guide Navy
         Best Practice Initiatives,” October 21, 1999

         General Accounting Office Report No. NSIAD-99-90 (OSD Case No. 1808),
         “DoD Pricing of Commercial Items Needs Continued Emphasis,” June 24, 1999

Inspector General, DoD
         Inspector General, DoD, Report No. D-2001-129, “Contracting Officer
         Determinations of Price Reasonableness When Cost or Pricing Data Were Not
         Obtained,” May 30, 2001

         Inspector General, DoD, Report No. D-2001-077, “Buying Program of the
         Standard Automated Materiel Management System Automated Small Purchase
         System: Defense Supply Center Philadelphia,” March 13, 2001

         Inspector General, DoD, Report No. D-2001-001, “Contract Award for the
         Fluid Flow Restrictor Spare Part,” October 3, 2000

         Inspector General, DoD, Report No. D-2000-192, “Results of the Defense
         Logistics Agency Strategic Supplier Alliance for Catalog Items,” September 26,
         2000 (September 29, 2000*)

         Inspector General, DoD, Report No. D-2000-099, “Procurement of the
         Propeller Blade Heaters for the C-130 and P-3 Aircraft,” March 8, 2000 (June
         12, 2000∗)



∗Only redacted versions of these reports will be available on the internet at
 www.dodig.osd.mil/audit/reports.

                                                    20
         Inspector General, DoD, Report No. D-2000-098, “Spare Parts and Logistics
         Support Procured on a Virtual Prime Vendor Contract,” March 8, 2000
         (June 14, 2000*)

         Inspector General, DoD, Report No. 99-218, “Sole-Source Noncommercial
         Spare Parts Orders on a Basic Ordering Agreement,” July 27, 1999 (October
         12, 1999*)

         Inspector General, DoD, Report No. 99-217, “Sole-Source Commercial Spare
         Parts Procured on a Requirements Type Contract,” July 21, 1999
         (August 16, 1999*)

         Inspector General, DoD, Report No. 99-026, “Commercial Spare Parts
         Purchased on a Corporate Contract,” October 30, 1998 (January 13, 1999*)

         Inspector General, DoD, Report No. 98-088, “Sole-Source Prices for
         Commercial Catalog and Noncommercial Spare Parts,” March 11, 1998
         (October 13, 1998∗)

         Inspector General, DoD, Report No. 98-064, “Commercial and Noncommercial
         Sole-Source Items Procured on Contract N000383-93-G-M111,” February 6,
         1998 (June 24, 1998*)




∗Only redacted versions of these reports will be available on the internet at
 www.dodig.osd.mil/audit/reports.

                                                    21
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director for Acquisition Initiatives
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Air Systems Command
  Commanding Officer, Naval Aviation Depot, Cherry Point
Commander, Naval Supply Systems Command
  Commander, Naval Inventory Control Point

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          22
Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency
   Commander, Defense Supply Center Columbus
   Commander, Defense Supply Center Richmond
   Commander, Defense Supply Center Philadelphia

Non-Defense Federal Organizations
Office of Management and Budget
Office of Federal Procurement Policy

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on Defense, Committee on Appropriations
  House Committee on Armed Services
  House Committee on Government Reform
  House Subcommittee on Government Efficiency, Financial Management, and
    Intergovernmental Relations, Committee on Government Reform
  House Subcommittee on National Security, Veterans Affairs, and International
    Relations, Committee on Government Reform
  House Subcommittee on Technology and Procurement Policy, Committee on
    Government Reform




                                         23
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.


Garold E. Stephenson
Henry F. Kleinknecht
Patrick J. Nix
Joseph P. Bucsko
Ricky T. Phaison
Matthew J. Rok
